Case: 19-2584

Document: 39

Page: 1

Date Filed: 03/02/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 19-2584
UNITED STATES OF AMERICA
v.
ROBERT BERNAL, JR.,
Appellant
(W.D. Pa. No. 2-16-cr-00148-001)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Theodore McKee
Circuit Judge
Date: March 2, 2020
Lmr/cc: Laura S. Irwin
Samantha Stern

APPENDIX B

